Bm

Y

fCfeirX'b feW/ts* '£
1^"h-horegy

v£
iXrit-b^/l^

af Ibvigr t cfc
(?s^yo n r?W VT~b.

XfrH'Xkvij "fbr ¥t ’VrA' </f

Ccir-Xiortt^i

ft ■ QforcWrw 7;2U3^- 0^3
'"US'

"~UlC S~P/w

fc£>X 2>lS5Q
hAjC<S'6A.

Vt^3g73H

pgeEW£®

ggggslSS

ot '&rcfesrrty
* Pis~b
%»
3-

otAts.'t

fzz^s) ( z-'S- |<*0„

C\r c\k.v\:

COlA. &^chsv~

( I~3D-2.cQ <•

fbtA^r-VU/ £\rsi/i,i"b ■~ew ^ofttfic orcWr

H*

of ?g-h

f 7~2-<Z-2jcT)

o/ygr^' Z2.^s vvug'irvw (^Poc* rta.. jxa-l-Q-

5. E^Wtlprts-ftjg«U ut'tkj "Rrfcvfcf aasr S

2.155 Wvtgyvw,

Ifl- £p(6^r|rte ftf* Gayy-gr fims. rrtT^ 22.55 r<5* gjs&fus-s. fOcx.. fru* IM/SP
7» t^'^- cou^ygB i

iWrugrUcjo

%• X.l\<G g~bmjgKX%

V"g~g|>t>yx.&-g r Doc-•• lfTe>» VH/o

( Oo^* Vls>> 32-P ♦

fWfj. ^grg£YY\^n-b
10.

GroenH-

of

f Dai, H,6c ^$3-______________
/ Q^* fU>* S>g> -A-nd ,6^0 -

U- ^'Xagy-'jsrfcs gf* fll/Jg 11 Trrt-n,:> - ( f)pc.- tl a« UH 3 \,2^. duly 2.-M i XO>^- TVvstn-3. C'Ob^- flo - 114").
^3-

S'£rrb£>'ic i

. j'le'ftV'i.

\*^.

^HsUifr Mitigy*

i irfrirus ♦ f Oo*.

(luiy Z6\ (

113 3-

Iwfrfagy- ( Ge> vg r /uvua^rtr Sx-l'ii fork iD-

a

IT) .

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-6800

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
ROBERTO ANTOINE DARDEN, a/k/a Dizz-e, a/k/a Javon,
Defendant - Appellant.

Appeal from the United States District Court for the Eastern District of Virginia, at
Newport News. Arenda L. Wright Allen, District Judge. (4:1 l-cr-00052-AWA-LRL-l;
4:14-cv-OO 136-A WA)

Submitted: December 20, 2019

Before DIAZ, THACKER, and RUSHING, Circuit Judges.

Dismissed by unpublished per curiam opinion.

Roberto Antoine Darden, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

Decided: January 30, 2020

PER CURIAM:
Roberto Antoine Darden seeks to appeal the district court’s order denying relief on
his 28 U.S.C. § 2255 motion. The order is not appealable unless a circuit justice or judge
issues a certificate of appealability. 28 U.S.C. § 2253(c)(1)(B). A certificate of
appealability will not issue absent “a substantial showing of the denial of a constitutional
right.” Id. § 2253(c)(2). When the district court denies relief on the merits, a prisoner
satisfies this standard by demonstrating that reasonable jurists would find that the district
court’s assessment of the constitutional claims is debatable or wrong. Slack v. McDaniel,
529 U.S. 473, 484 (2000); see Miller-El v. Cockrell, 537 U.S. 322, 336-38 (2003). When
the district court denies relief on procedural grounds, the prisoner must demonstrate both
that the dispositive procedural ruling is debatable, and that the motion states a debatable
claim of the denial of a constitutional right. Slack, 529'U.S. at 484-85.
We have independently reviewed the record and conclude that Darden has not made
the requisite showing. Accordingly, we deny a certificate of appealability, deny Darden s
motion for counsel, and dismiss the appeal. We dispense with oral argument because the
facts and legal contentions are adequately presented in the materials before this court and
argument would not aid the decisional process.
DISMISSED

2

FILED: July 28, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-6800
(4:11 -cr-00052-AWA-LRL-1)
(4:14-cv-00136-AWA)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
ROBERTO ANTOINE DARDEN, a/k/a Dizz-e, a/k/a Javon
Defendant - Appellant

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Diaz, Judge Thacker, and Judge
Rushing.
For the Court
/s/Patricia S. Connor, Clerk

Case 4:ll-cr-00052-AWA-LRL Document 170 Filed 04/26/19 Page 1 of 9 PagelD# 1486

united states district court
FOR THE EASTERN DISTRICT OF VIRGINIA
Newport News Division

r.

FILED

>

APR 2 6 2019
ROBERTO ANTOINE DARDEN,

^ tested ^

Petitioner,
Civil No. 4:1 lcr52

v.
UNITED STATES OF AMERICA,
Respondent.
ORDER

This matter is before the Court on remand from the United States Court of Appeals for die
Fourth Circuit regarding Petitioner Roberto Antoine Darden’s Motion under 28 U.S.C. § 2255 to
Vacate, Set Aside, or Correct Sentence by a Person in Federal Custody. ECFNo. 124. On remand,
Mr. Darden’s Motion is DENIED.

I.

BACKGROUND
On November 23, 2011, Mr. Darden pleaded guilty to Counts Three and Nine of the

Superseding Indictment pursuant to a written plea agreement. ECF No. 54. Count Three charged
him with Conspiracy to Produce Child Pornography, in violation of 18 U.S.C. §§ 2251(a) and (e).
ECF No. 32. Count Nine charged him with Tampering with a Witness, Victim, or Informant, in
violation of 18 U.S.C. § 1512(b)(3). Id. Mr. Darden was represented by counsel through a
Criminal Justice Act appointment. ECF No. 53. In his plea agreement, Mr. Darden represented
that he was “satisfied that [his] attorney ha[d] rendered effective assistance.” ECF No. 54 at 2. At
his guilty plea hearing, he represented to the Court that he had had ample time to discuss the case

1

Case 4:1 l-cr-00052-AWA-LRL Document 170 Filed 04/26/19 Page 2 of 9 PagelD# 1487

with his attorney and that he understood the charges against him. ECF No. 64 at 5-6,9. He also
stated that he did not believe that any of his constitutional rights had been violated. Id. at 18-19.
Mr. Darden subsequently filed several motions seeking to have his attorney withdrawn
from the case and to withdraw his guilty plea. ECF Nos. 62,65,66,70. The Court held a hearing
at which Mr. Darden was asked if he had a complaint that his counsel was ineffective. ECF No.
88 at 5. Mr. Darden responded, “As of now, no. We discussed it downstairs. He clarified
everything finally for me.” Id. He also answered that he no longer wished to withdraw his guilty
plea. Id. at 6.
Mr. Darden was sentenced on October 12, 2012. ECF No. 103. He raised forty-two
objections to die Presentence Investigation Report, all of which die Court overruled. See ECF No.
113. He was assessed a Total Offense Level of 46 and a Criminal History Category of HI. The
Court sentenced him to 600 months’ imprisonment. ECF No. 104 at 2.
The United States Court of Appeals for the Fourth Circuit denied Mr. Darden’s direct
appeal. ECF No. 121. Subsequently, Mr. Darden filed a Motion under 28 U.S.C, § 2255. ECF
No. 124. The Court denied that Motion on February 8,2018. ECF No. 158.
Mr. Darden appealed, and die Fourth Circuit concluded that not all of Mr. Darden’s claims
were resolved fully. ECF No, 165. Specifically, Mr. Darden’s claims that counsel provided
ineffective assistance by failing to (1) move to suppress the seizure of certain evidence from a
plastic tub Mr. Darden left at a former residence and (2) file a motion in limine excluding
statements from the victim regarding a photo lineup were not addressed. Id. The Fourth Circuit
accordingly remanded die case to this Court to address these ineffective assistance claims. Id.

2

Case 4:ll-cr-00052-AWA-LRL Document 170 Filed 04/26/19 Page 3 of 9 PagelD# 1488

II,

STANDARD OF REVIEW
A petitioner collaterally attacking his or her sentence or conviction bears the burden of

proving that his or her sentence or conviction was imposed in violation of the United States
Constitution or federal law, that the court was without jurisdiction to impose such a sentence, that
the sentence exceeded the maximum authorized by law, or that the sentence is otherwise subject
to collateral attack. 28 U.S.C. § 2255. The petitioner bears the burden of proving his or her
grounds for collateral relief by a preponderance of the evidence. Miller v. United States, 261 F.2d
546,547 (4th Cir. 1958).
A collateral attack under 28 U.S.C. § 2255 is far more limited than an appeal. The doctrine
of procedural default bars the consideration of a claim that was not raised at the appropriate time
during the original proceedings or on appeal. A collateral challenge is not intended to serve the
same functions as an appeal. United States v. Frady, 456 U.S. 152, 165 (1981). There are two
instances, however, when a procedurally defaulted claim may be considered on collateral review.
The first instance is when a petitioner shows both cause for the procedural default and actual
prejudice resulting from the alleged error. Id. at 167; see also Wainwright v. Sykes, 433 U.S. 72,
84 (1977); United States v. Mikalajunas, 186 F.3d 490, 492-95 (4th Cir. 1999). The petitioner
“must demonstrate that the error worked to his (or her] ‘actual and substantial disadvantage,’ not
merely that the error created a ‘possibility of prejudice.’” Satcher v. Pruett, 126 F.3d 561, 572
(4th Cir. 1997) (quoting Murray v. Carrier, 477 U.S. 478, 494 (1986)). Alternatively, if a
petitioner can demonstrate that he or she is actually innocent, then the court should also issue a
writ of habeas corpus in order to avoid a miscarriage of justice, regardless of whether the claim
was procedurally defaulted. See Mikalajunas, 186 F.3d at 493 (citing Murray, All U.S. at 496).

3

Case 4:ll-cr-00052-AWA-LRL Document 170 Filed 04/26/19 Page 4 of 9 PageiD# 1489

Claims of ineffective assistance of counsel may properly be brought for the first time on a
petition pursuant to 28 U.S.C. § 2255, see United States v, DeFusco, 949 F.2d 114,120-21 (4th
Cir, 1991), and may be asserted as a means to establish “cause” to overcome a petitioner’s previous
failure to raise an independent claim unrelated to counsel’s performance. Murray, 477 U.S. at
488.

The Sixth Amendment to the United States Constitution provides, in relevant part, that
“[i]n all criminal prosecutions, the accused shall enjoy the right... to have the Assistance of
Counsel for his defence.” U.S. Const, amend. VI. The Sixth Amendment right to counsel includes
the right to the effective assistance of counsel. Strickland v. Washington, 466 U.S. 668, 686
(1984). The United States Supreme Court’s standard for assessing claims of ineffective assistance
of counsel is “highly deferential,” and courts considering such claims “must indulge a strong
presumption that counsel’s conduct tails within the wide range of reasonable professional
assistance.” Id at 689; see also Kimmelman v. Morrison, 477 U.S. 365,381-82 (1986) (discussing
the “highly demanding” Strickland test).
Moreover, as it is “all too tempting for a defendant to second-guess counsel’s assistance
after conviction or adverse sentence... [a] fair assessment of attorney performance requires that
every effort be made to eliminate the distorting effects of hindsight” and that the court “evaluate
the conduct from counsel’s perspective at the time.” Strickland, 466 U.S. at 689. To establish a
valid claim for ineffective assistance of counsel, petitioner must prove both (1) that his or her
attorney’s conduct fell below an objective standard of reasonableness and (2) that the attorney’s
deficient performance caused petitioner prejudice. Strickland, 466 U.S. at 687-91.
The first prong of the Strickland test requires a petitioner to establish that “counsel made
errors so serious that counsel was not functioning as the ‘counsel’ guaranteed the defendant by the

4

Case 4:ll-cr-00052-AWA-LRL Document 170 Filed 04/26/19 Page 5 of 9 PagelD# 1490

Sixth Amendment.” Id. at 687. “[E]fFective representation is not synonymous with errorless
representation,” and establishing deficient performance requires more than a showing that
counsel’s performance was below average. Springer v. Collins, 586 F.2d 329,332 (4th Cir. 1978);
see also Strickland, 466 U.S. at 687-88.
The second prong of the Strickland test requires a petitioner to establish actual prejudice,
which is demonstrated by showing “a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been different A reasonable probability is a
probability sufficient to undermine confidence in the outcome.” Id. at 694. A petitioner’s
conclusory statements will not suffice to prove such a reasonable probability.
A petitioner who alleges ineffective assistance of counsel in a case in which he or she
pleaded guilty must demonstrate “that there is a reasonable probability that, but for counsel’s
errors, he [or she] would not have pleaded guilty and would have insisted on going to trial.” Hill
v. Lockhart, 474 U.S. 52, 59 (1985); accord Fields v. Att’y Gen. o/Md, 956 F.2d 1290,1297-98
(4th Cir. 1992) & Hooper v. Garraghty, 845 F.2d 471,475 (4th Cir. 1988) (“When a defendant
challenges a conviction entered after a guilty plea, [the] ‘prejudice’ prong of the test is slightly
modified.”). An inquiry into whether a petitioner has presented sufficient evidence to demonstrate
such a reasonable probability will often necessitate an inquiry into the likely results at trial. Hill,
474 U.S. at 59-60. That a plea bargain is “favorable” to a petitioner and that “accepting it was a
reasonable and prudent decision” is evidence of the “voluntary and intelligent” nature of the plea
bargain. Fields, 956 F.2d at 1299.
In evaluating a claim of ineffective assistance of counsel made after a guilty plea,
statements made under oath, such as those made in a proceeding pursuant to Rule 11 of the Federal
Rules of Criminal Procedure, are binding on the petitioner “[a]bsent clear and convincing evidence

5

Case 4:ll-cr-00052-AWA-LRL Document 170 Filed 04/26/19 Page 6 of 9 PagelD# 1491

to the contrary.” Id. “[A] negations in a § 2255 motion that directly contradict the petitioner’s
sworn statements made during a properly conducted Rule 11 colloquy are always palpably
incredible and patently frivolous or false.” United States v. Lemaster, 403 F.3d 216,221 (4th Cir.
2005) (internal quotation marks omitted). Accordingly, “a district court should, without holding
an evidentiary hearing, dismiss any § 2255 motion that necessarily relies on allegations that
contradict the sworn statements.” Id. at 222.
in.

ANALYSIS
Mr. Darden’s second ground for relief includes seven categories. The Court addressed

most of these categories in the previous Order and addresses the remaining two in this Order
pursuant to the remand from the Fourth Circuit.
First, Mr. Darden argues that he was denied effective assistance of counsel when counsel
failed to seek suppression of incriminating evidence seized in violation of the Fourth Amendment
to the United States Constitution. ECF No. 134 at 5-11. Specifically, Mr. Darden states that law
enforcement received consent from a third party who was a confidential source to search a locked
plastic container that belonged to Mr. Darden, Id. at 5-6. Mr. Darden states that the confidential
source had no authority to grant consent to search Mr, Darden’s property and that law enforcement
knew that she lacked authority. Id. The locked container contained contracts, fliers, business
cards, and other items related to Mr. Darden’s sex-trafficking operation. Id. at 7.
The Court notes that Mr. Darden was asked at his guilty plea hearing whether he believed
his constitutional rights were violated. He answered in the negative. ECF No. 64 at 18-19. Mr.
Darden also stated in his plea agreement, at his plea hearing, and at the subsequent motions hearing
that he was satisfied with his attorney’s performance. Mr. Darden cannot alter those statements
without compelling cause to do so. See Blackledge v. Allison, 431 U.S. 63, 74 (1977) (“Solemn

6

Case 4:ll-cr-00052-AWA-LRL Document 170 Filed 04/26/19 Page 7 of 9 PagelD# 1492

declarations in open court carry a strong presumption of verity,”); United States v. Lemaster, 403
F.3d 216,221 (40) Cir. 2005) (stating that because “courts must be able to rely on the defendant’s
statements made under oath during a properly conducted Rule 11 plea colloquy,” § 2255 claims
that contradict a petitioner’s plea colloquy are deemed false absent extraordinary circumstances).
Mr. Darden cannot show deficient performance nor prejudice. Mr. Darden’s counsel
submitted an affidavit that explained his reasoning for not seeking suppression. ECF No. 145-1 at
3. Counsel stated that the property in question was left by Mr. Darden in an apartment in which
he no longer lived. Id, Counsel stated that the registered tenant of the apartment discovered
pornography and prostitution-related material belonging to Mr. Darden in the closet and contacted
the complex’s management, who in nun contacted law enforcement. Id. He stated that the tenant
allowed law enforcement into her apartment and handed law enforcement the documents and other
property Mr. Darden had left. Id. at 3-4. He stated that it was his opinion that there was no Fourth
Amendment violation as a result of the search. Id,
Counsel’s performance was not deficient. The Strickland test requires that counsel’s
performance be so lacking that a defendant essentially has no counsel at all. The Strickland test is
not met where counsel makes a reasoned conclusion as to whether a constitutional violation had
occurred that just happens to differ with the defendant’s conclusion.
Nor can Mr. Darden show prejudice, because he has not shown a reasonable probability
that a suppression motion would have been successful and that a successful motion would have
resulted in Mr. Darden electing to go to trial. Even absent the contents of the plastic container, the
Government had ample evidence to offer against Mr. Darden had the case gone to trial. Mr.
Darden’s argument does not warrant the relief he seeks.

7

Case 4:ll-cr-00052-AWA-LRL Document 170 Filed 04/26/19 Page 8 of 9 PagelD# 1493

Mr. Darden’s second previously unaddressed argument is that counsel was ineffective for
failing to file a motion in limine excluding statements from the victim regarding a photo lineup
that included Mr. Darden. ECF No. 134 at 18-23. On January 6, 2011, the Hampton Police
Department showed victim Jane Doe a photo array. ECF No. 134 at 19. Mr. Darden argues that
Ae photo array was suggestive because Mr. Darden was the only one pictured wearing bland
clothing. Id. Mr. Darden argues that Jane Doe’s identification of him from that lineup is
manifestly suspect, using the five-factor test from Neil v. Biggers, 409 U.S. 188,199-200 (1972). i
Mr. Darden cannot show deficiency or prejudice. Mr. Darden’s counsel stated that he
would have cross-examined Jane Doe and attacked her credibility had the case gone to trial, but
that it was his reasoned opinion that her statements were admissible. ECF No. 145-1 at 7, Even
if Jane Doe’s lineup statement were excluded, Jane Doe would have testified, and Mr. Darden does
not contest that Jane Doe could have reliably identified co-conspirator Ojima Crudup, who is
connected to Mr. Darden by other evidence. In short, Mr. Darden cannot show that the exclusion
of this one statement would have resulted in him proceeding to trial, particularly because Mr.
Darden’s counsel asserts that Jane Doe’s other testimony would have been harmful to Mr.
Darden’s case. Id. See also Hill, 474 U.S. at 371 (instructing courts to consider the likelihood of
success at trial when considering whether a defendant would have opted to proceed to trial).
Neither of these arguments by Mr. Darden supports granting the relief he seeks,
IV.

CONCLUSION
On remand, Mr. Darden’s Motion to Vacate Under 28 U.S.C. § 2255, ECF No. 124, is

DENIED. Petitioner has failed to demonstrate a substantial showing of the denial of a

1 These five factors are (1) the opportunity of the witness to view the criminal at the time of the crime; (2) the witness*
degree of attention; (3) the accuracy of die witness’ prior description of the criminal; (4) the level of certainty
demonstrated by the witness at the confrontation; and (5) the length of time between the crime and the confrontation.
Biggers, 409 U.S. at 199-200.

8

Case 4:ll-cr-00052-AWA-LRL Document 170 Filed 04/26/19 Page 9 of 9 PagelD# 1494

constitutional right. Therefore, the Court declines to issue any certificate of appealability pursuant
to Rule 22(b) of the Federal Rules of Appellate Procedure. See Miller-El v. Cockrell, 537 U.S.
322, 335 (2003). The Cleric shall forward a copy of this Order to Petitioner and to counsel of
record for Respondent.
IT IS SO ORDERED.

Arendatr&ifght Allen
United States District Judge

CL*;(
Norfolk, Virginia

,2019

9

D
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Newport News Division

ROBERTO ANTOINE DARDEN,
Petitioner,
Criminal No. 4:1 lcr52-l

v.
UNITED STATES OF AMERICA,
Respondent.

ORDER
This matter is before the Court on a Motion under 28 U.S.C. § 2255 to Vacate, Set Aside,
or Correct Sentence by a Person in Federal Custody (“§ 2255 motion”) filed by Petitioner
Roberto Antoine Darden (“Mr. Darden”). ECF No. 124. Mr. Darden seeks collateral relief for
the following reasons: (1) the Government breached the plea agreement; (2) ineffective
assistance of counsel; (3) a “Brady Violation;” and (4) insufficient evidence. For the reasons that
follow, Mr. Darden’s § 2255 Motion is DENIED.
Also pending before the Court are the following: Motion to Proceed in Forma Pauperis
(ECF No. 150); Motion for Return of Property (ECF No. 151); Motion to Supplement the Record
(ECF No. 152); Motion to Expand or Supplement the Record (ECF No. 153); Motion to Expand
the Record (ECF No. 154); Motion Objecting to the District Court’s Sealing of a Motion (ECF
No. 155); Motion Objecting to this Court’s Seal (ECF No. 156); and a Motion for Leave to
Amend (ECF No. 157). For the following reasons, Mr. Darden’s Motion for Return of Property
is DENIED, and Mr. Darden’s remaining motions are DISMISSED AS MOOT.

RECEIVED
NOV 1 0 2020
Of^gl^JoURT-qsL

I.

BACKGROUND
On June 20, 2011, a Sealed Criminal Complaint alleging violations of 18 U.S.C. § 1591

and 18 U.S.C. § 2251(a) was filed against Mr. Darden. ECF No. 1. The same day, the Court
issued an arrest warrant for Mr. Darden. ECF No. 5. Mr. Darden was arrested on June 24, 2011.
On July 21, 2011, Mr. Darden was indicted on Sex Trafficking of Children, in violation of 18
U.S.C. §§ 1594(c), 1591(a) and (b)(1) (Counts 1-2), Conspiracy to Produce Child Pornography,
in violation of 18 U.S.C. § 2251(a) and (e) (Count 3); Production of Child Pornography, in
violation of 18 U.S.C. § 2251(a) (Count 4) and Obstruction, in violation of 18 U.S.C. § 1591(d)
(Count 5). ECF No. 20.
On August 18, 2011, the counts of the Indictment were dismissed against Mr. Darden in
favor of a nine-count Superseding Indictment.

Count One charged Mr. Darden with Sex

Trafficking of Children-Conspiracy, in violation of 18 U.S.C. § 1594(c). Count Two charged
Mr. Darden with Sex Trafficking of Children, in violation of 18 U.S.C. §§ 1591(a) and (b)(1).
Count Three charged Mr. Darden with Conspiracy to Produce Child Pornography, in violation of
18 U.S.C. §§ 2251(a) and (e).

Count Four charged Mr. Darden with Production of Child

Pornography, in violation of 18 U.S.C. § 2251(a).

Count Five charged Mr. Darden with

Obstruction, in violation of 18 U.S.C. § 1591(d). Counts Six and Seven charged Mr. Darden
with Distribution of Narcotics to Persons Under Twenty-One Years of Age, in violation of 21
U.S.C. §§ 841(a) and 859.

Count Eight charged Mr. Darden with Extortion by Interstate

Communications, in violation of 18 U.S.C. § 875(d). Count Nine charged Mr. Darden with
Tampering with a Witness, Victim or Informant, in violation of 18 U.S.C. § 1512(b)(3). Mr.
Darden was also charged with Forfeiture pursuant to 18 U.S.C. §§ 1594(d), (e) and 2253. The
property subject to forfeiture included, but was not limited to, the following items, some of

2

which were seized from Mr. Darden in June 2011: a Western Digital external USB hard drive
bearing serial number WCAV56817661; a HTC cellular phone bearing serial number
HT067HL04499; all documents and items used in the creation or maintenance of the company
known as Liquid Studios or Liquid Playhouse; all documents and items used in the creation or
maintenance of the company known as Hot H3ad Ent3rtainm3nt or Hotheadent; and an
automobile bearing Tennessee license plate 636QTL.
A.

November 23,2011 Guilty Plea Hearing

On November 23, 2011, Mr. Darden pled guilty to Counts Three and Nine of the
Superseding Indictment pursuant to a written plea agreement (the “Plea Agreement”). ECF No.
54. Mr. Darden was represented by counsel through a Criminal Justice Act Appointment. ECF
No. 53. The Plea Agreement was signed by the Assistant United States Attorney, Mr. Darden’s
counsel, and Mr. Darden. See ECF No. 54.
As part of Mr. Darden’s Plea Agreement, he represented that “[t]he defendant is satisfied
that the defendant’s attorney has rendered effective assistance.” ECF No. 54 at 2. Mr. Darden,
Mr. Darden’s counsel, and the Assistant United States Attorney each initialed the bottom righthand comer of the page. ECF No. 54 at 2.
At the hearing held on November 23, 2011, when the Court accepted Mr. Darden’s guilty
plea, the Court confirmed that Mr. Darden’s plea was knowing and voluntary. The Court asked
Mr. Darden, “Have you had ample opportunity to discuss [the] charges and your case in general
with your attorney ... ?” ECF No. 64 at 5-"6. Mr. Darden responded, “Yes.” ECF No. 64 at 6.
When asked whether Mr. Darden had read the Indictment, he responded that he had not, and he
was given time to do so. ECF No. 64 at 8. He was subsequently asked if he understood the
essential elements of the charges, to which he replied “Yes.” ECF No. 64 at 9. The Court

3

further asked, “Do I need to review the elements again?” ECF No. 64 at 9.

Mr. Darden

responded, “No.” ECF No. 64 at 9.
B.

February 29, 2012 Motions Hearing

On February 29, 2012, this Court held a hearing on several pending motions:
1. Mr. Darden’s Motion to Withdraw Counsel (ECF No. 62);
2. Counsel’s Motion to Withdraw as Attorney (ECF No. 65);
3. Mr. Darden’s Motion to Withdraw Plea of Guilty (ECF No. 66);
4. The Government’s Motion to Determine Defendant’s Breach of Plea Agreement (ECF
No. 69); and
5. Counsel’s Motion to Withdraw as Attorney and Schedule Hearing (ECF No. 70).
At the hearing, the Court asked Mr. Darden about his pro se Motion and his counsel’s
alleged conflict of interest. ECF No. 88 at 4. Mr. Darden explained that his Motion “stem[med]
from a miscommunication.” ECF No. 88 at 5. The Court asked Mr. Darden, “do you have a
complaint right now about [your counsel] and him being ineffective?” Mr. Darden responded,
“As of now, no. We discussed it downstairs. He clarified everything finally for me.” ECF No.
88 at 5. The Court asked again, “So based on everything you’re saying this afternoon I’m
assuming you’re good with him representing you at your sentencing hearing?” Mr. Darden
responded, “Yeah.” ECF No. 88 at 6.
The Court also inquired about Mr. Darden’s motion to withdraw his plea of guilty. Mr.
Darden responded that he no longer wished to withdraw his guilty plea because he had clarified
matters with counsel. ECF No. 88 at 6. The Court asked “Mr. Darden, is there any other matter
you want to bring to the court?” Mr. Darden replied, “No.” ECF No. 88 at 8.

4

The Government and the Court confirmed that “Mr. Darden is now saying today that he
no longer wants [his attorney] to withdraw as counsel,” and that “he has no complaints about
[counsel's] representation vis-a-vis the plea hearing or in the sentencing hearing and he doesn’t
want to breach his plea agreement at all.” ECF No. 88 at 8-9. Mr. Darden replied, “Yes. Yes.”
ECF No. 88 at 9.
C.

October 12,2012 Sentencing Hearing

Mr. Darden’s sentencing hearing was held on October 12, 2012. ECF No. 103.

In

preparation for sentencing, the United States Probation Office prepared a Presentence
Investigation Report (“PSR”). The PSR indicated that Mr. Darden had forty-four unresolved
objections. ECF No. 79 at 60-79.
At sentencing, Mr. Darden was represented by his counsel. Forty factual objections that
were asserted did not affect the Guidelines, and Mr. Darden presented no evidence regarding'
those forty factual objections. ECF No. 113 at 13. Pursuant to Federal Rule of Civil Procedure
32, the Court overruled those forty objections. ECF No. 113 at 15. Mr. Darden withdrew two
objections, and proffer was given on the remaining two objections. ECF No. 113 at 15. After
the proffer, the Court overruled these remaining two objections. ECF No. 113 at 26, 30.
Mr. Darden was assessed a Total Offense Level of 46, and a Criminal History Category
of III. The Court sentenced Mr. Darden to 600 months, consisting of 360 months’ imprisonment
on Count Three and 240 months’ imprisonment on Count Nine, all to be served consecutively.
ECF No. 104 at 2.
D.

$ 2255 Motion

The United States Court of Appeals for the Fourth Circuit denied Mr. Darden’s direct
appeal. ECF No. 121. Subsequently, Mr. Darden filed the instant motion under 28 U.S.C. §

5

2255 to Vacate, Set Aside, or Correct Sentence by a Person in Federal Custody. ECF No. 124.
In his Motion, Mr. Darden claims four bases for relief:
1. The Government breached Paragraph 21 and Paragraph 3 of the Plea Agreement;
2. Ineffective assistance of counsel;
3. The Government suppressed material evidence favorable to Mr. Darden; and
4. Mr. Darden was denied due process because there was insufficient evidence to convict
him of Count 9.
ECF No. 134.
II.

LEGAL STANDARD
A.

Collateral Review under 28 U.S.C. § 2255

A federal prisoner moving to vacate, set aside, or correct a sentence bears the burden of
proving that (1) the sentence or conviction was imposed in violation of the United States
Constitution or federal law, or (2) the Court was without jurisdiction to impose such a sentence,
or (3) the sentence exceeded the maximum authorized by law, or (4) the sentence is otherwise
subject to collateral attack. See 28 U.S.C. § 2255(a).
Collateral review under 28 U.S.C. § 2255 is distinguished from direct review, and from
an appeal, because it is far more limited than an appeal and is not intended to serve the same
functions as an appeal. United States v. Frady, 456 U.S. 152, 165 (1982). To obtain collateral
relief, Petitioner must “clear a significantly higher hurdle than would exist on direct appeal.” Id.
at 166. Although the procedural default doctrine generally bars claims not raised previously at
trial, see United States v. Pettiford, 612 F.3d 270, 280 (4th Cir. 2010), a freestanding claim of
ineffective assistance may be asserted for the first time in a § 2255 habeas motion for collateral
relief. United States v. DeFusco, 949 F.2d 114, 120 (4th Cir. 1991).

6

B.

Ineffective Assistance of Counsel

“In all criminal prosecutions, the accused shall . . . have the assistance of counsel for his
defense.” U.S. CONST, amend. VI. Ineffective assistance of counsel claims are properly raised
in a motion under 28 U.S.C. § 2255. United States v. Richardson, 195 F.3d 192, 198 (4th Cir.
1999).

The decision in Strickland v. Washington sets forth the two-part test under which

ineffective assistance of counsel claims are examined. 466 U.S. 668 (1984). To prevail on an
ineffective assistance of counsel claim, a petitioner must show (1) “that counsel made errors so
serious that counsel was not functioning as the ‘counsel’ guaranteed the defendant by the Sixth
Amendment;” and (2) that the “deficient performance prejudiced the defense.” Id. at 687.
A petitioner must show that there is “a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different.” Id. at 694. A
petitioner must overcome the presumption that the challenged conduct might be the “result of
sound trial strategy.” Spencer v. Murray, 18 F.3d 229, 233 (4th Cir. 1994).
C.

Government Response Not Necessary

Rule 4(b) of the Rules Governing § 2255 Proceedings for the United States District
Courts requires a federal judge to perform a preliminary review of a § 2255 motion.
Specifically, Rule 4(b) states:
If [the § 2255] plainly appears from the motion, any attached exhibits, and the
record of prior proceedings that the moving party is not entitled to relief, the
judge must dismiss the motion and direct the clerk to notify the moving party. If
the motion is not dismissed, the judge must order the United States attorney to file
an answer, motion, or other response within a fixed time, or to take other action
the judge may order.
R. Governing § 2255 Proceedings in U.S. Dist. Cts. 4(b).
If a court determines that a petitioner’s claims are without merit, the court may dismiss or
deny the motion without requiring a government response. See United States v. Rogers, No.
7

WMN-09-467, 2014 WL 11955410, at *1-2 (D. Md. Aug. 6, 2014). After reviewing Petitioner’s
motion and case file, the Court finds that dismissal of this action without a response from the
Government is warranted.
III.

ANALYSIS
A.

Ground One

Mr. Darden asserts that he is entitled to relief because the Government breached Clause
Three and Twenty One of the Plea Agreement. ECF No. 124 at 4. Mr. Darden argues that
pursuant to Clause Twenty One of the Plea Agreement, the Government agreed that there were
no representations or agreements reached other than those in the plea. ECF No. 124-1 at 1. The
Government allegedly breached this clause at sentencing when it considered filing a motion for
acceptance of responsibility.

EFF No. 124-1 at 32.

Mr. Darden takes no issue with the

Government’s failure to file this motion, but rather argues that the Plea Agreement prevented the
Government from even considering doing so. ECF No. 124-1 at 32.
When the Government breaches a plea agreement, a defendant is entitled to “specific
performance of the agreement on the plea, in which case [the defendant] should be resentenced
by a different judge,” or “the opportunity to withdraw his plea.” Santobello v. New York, 404
U.S. 257, 263 (1971). To qualify for such remedies, the breach must be material. See United
States v. Scruggs, 356 F.3d 539, 543 (4th Cir. 2004). For a breach to be material, “the injured
party will be deprived of the benefit which he reasonably expected.” Id. (quoting Restatement
(Second) of Contracts § 241 (Am. Law Inst. 1981)). The Plea Agreement established that Mr.
Darden was not entitled to this extra point for acceptance of responsibility. See ECF No. 54.
Assuming without deciding that the Government’s actions could be construed as a breach of the
Plea Agreement, such conduct was in no sense material.

8

Mr. Darden also argues that the Government breached the Plea Agreement by deleting
Paragraph Three from the Statement of Facts. ECF No. 124-1 at 34. Mr. Darden asserts that by
deleting this paragraph, the Government failed to “satisfy the essential elements” necessary to
prove his guilt beyond a reasonable doubt. ECF No. 124-1 at 39. According to Mr. Darden, the
Government breached the Plea Agreement by failing to provide a factual basis for his guilt. ECF
No. 124-1 at 39.
A plausible interpretation of this issue suggests that Mr. Darden breached the Plea
Agreement. Paragraph Three of the Statement of Facts reads in pertinent part: “The defendant
admits the facts set forth in the statement of facts filed with this plea agreement and agrees that
those facts establish guilt of the offense charged beyond a reasonable doubt.” ECF No. 54 at 2.
The Government and Mr. Darden both initialed Paragraph Three’s deletion from the Statement
of Facts.

When he accepted the Plea Agreement, Mr. Darden conceded that, even with

Paragraph Three’s omission, the facts established his guilt of the offense charged beyond a
reasonable doubt.
B.

Ground Two

Mr. Darden also asserts that he is entitled to relief because his attorney provided
ineffective assistance of counsel in violation of the Sixth Amendment to the United States
Constitution. Mr. Darden asserts seven grounds of ineffective assistance:
1. Counsel was ineffective for failing to subpoena evidence favorable to Mr. Darden’s
defense;
2. Counsel was ineffective for failing to investigate and seek suppression of certain letters
seized illegally;

9

3. Counsel was ineffective for failing to file a motion in limine to exclude hearsay
declarations of co-conspirators;
4. Counsel was ineffective by providing erroneous information regarding Count Three’s
elements;
5. Counsel was ineffective when he failed to move the Court to sever Count Nine;
6. Counsel was ineffective for failing to file a motion in limine to exclude Jane Doe’s
testimony; and
7. Counsel was ineffective because of conflicts of interest.
ECF No. 134 at 5-32.
Regarding the first, second, and third alleged errors, the record establishes that Mr.
Darden pled guilty to Counts Three and Nine because he desired to do so and was guilty. See
ECF Nos. 54, 64, 88 (see below). Assuming without deciding that counsel was deficient as
alleged, Mr. Darden has made no showing of prejudice resulting from counsel’s alleged actions.
Absent proof of prejudice, “a court need not determine whether counsel’s performance was
deficient.” Strickland, 46 U.S. at 697.
In regards to the fourth and fifth alleged errors, Mr. Darden’s acceptance of the Plea
Agreement, along with his testimony at the February 29, 2012 hearing, shows that he understood
the elements of both offenses and was satisfied that he had been rendered effective assistance by
counsel. In the Plea Agreement, Mr. Darden agreed that he was “satisfied that the defendant’s
attorney has rendered effective assistance.” ECF No. 54 at 2. In addition, during Mr. Darden s
plea colloquy, the Court confirmed that Mr. Darden read the agreement fully and that his plea
was knowing and voluntary. ECF No. 64 at 5-9. Mr. Darden also confirmed that he understood

10

the elements of both counts at the February 29, 2012 hearing, and that he had no complaints
about his counsel’s performance. ECF No. 88 at 5-9.
In the sixth alleged error, Mr. Darden is likely referencing Jane Doe’s victim impact
statement, which was provided during sentencing. ECF No. 134 at 22. Pursuant to Federal Rule
of Criminal Procedure 32, victims who are present are given an opportunity to be heard. Fed. R.
Civ. P. 32(i)(4)(B). There was no error in counsel’s failure to object to the introduction of Jane
Doe’s statement.
In the seventh alleged error, Mr. Darden asserts that his counsel had a conflict of interest
because he had once supervised the presiding judge and one of the Government’s attorneys, and
because another Government attorney had been his neighbor. ECF No. 134 at 28-29. Mr.
Darden argues that these relationships caused his counsel to pressure him into accepting the Plea
Agreement. ECF No. 134 at 29.
“To establish that a conflict of interest resulted in ineffective assistance . . . [t]he
petitioner must show (1) that his lawyer was under an actual conflict of interest and (2) that this
conflict adversely affected his lawyer’s performance.” United States v. Nicholson, 475 F.3d 241,
249 (4th Cir. 2007) (citing Cuyler v. Sullivan, 446 U.S. 335, 348 (1980)). Mr. Darden has failed
to make this showing.
Accordingly, the arguments presented in Ground Two afford Mr. Darden no relief.
C.

Ground Three

Mr. Darden also asserts that he was denied due process when the Government allegedly
suppressed material evidence favorable to his defense. ECF No. 134 at 34. Specifically, Mr.
Darden asserts that his “Freshmeat Freshman” DVD would have established that “Adrianna
Bailey and Jane Doe did not sign a contract etc.,” and would have “disprovefd] the government’s

11

many theories had it been disclosed to the defense and not fraudulently concealed (3) weeks
before trial.” ECF No. 134 at 34.
Under Brady v. Maryland, 373 U.S. 83 (1963), prosecutors must disclose to the defense
materially exculpatory evidence in their possession. To prove a constitutional violation under
Brady, the defendant bears the burden of proving the nondisclosure, as well as a reasonable
probability that but for this nondisclosure, his or her conviction or sentence would have been
different. Kyles v. Whitley, 514 U.S. 419,433 (1955).
Mr. Darden has alleged merely that the Government possesses this DVD, and that his
counsel requested it repeatedly without success. ECF No. 134 at 34. He has presented no other
evidence of an alleged nondisclosure.

Mr. Darden has also failed to show a reasonable

probability that his conviction or sentence would have been different had this DVD been
disclosed. Accordingly, Ground Three affords Mr. Darden no relief.
D.

Ground Four

Mr. Darden asserts that there was insufficient evidence to convict him of 18 U.S.C. §
1512(b)(3). ECF No. 134. As previously established, Mr. Darden’s decision to enter a plea of
guilty pursuant to the Plea Agreement was knowing and voluntary. In Paragraph Three of the
Plea Agreement, Mr. Darden agreed that “the facts set forth in the statement of facts filed with
[the] plea agreement. . . establish guilt of the offense charged beyond a reasonable doubt.” ECF
No. 54 at 2. Accordingly, Ground Four affords Mr. Darden no relief.
IV.

MISCELLANEOUS MOTIONS
A.

Motion for Return of Property

In his Motion, Mr. Darden seeks return of his “Freshmeat Freshman DVD.” ECF No.
151. He also asks the Court to sanction the Government’s attorneys if the DVD has been altered.

12

ECF No. 151 at 3. -Pursuant to the Plea Agreement, Mr. Darden agreed to forfeit “[a]ll
documents and items used in the creation or maintenance of the company known as Liquid
Studios or Liquid Playhouse . . . [and] Hot H3ad Ent3rtainm3nt or Hotheadent.” ECF No. 54 at
9. Mr. Darden’s Consent Order of Forfeiture became final on November 23, 2011. ECF No. 57.
Assuming the Government has possession of this DVD, it was forfeited properly pursuant to the
Consent Order of Forfeiture. Accordingly, this Motion is DENIED.
B.

Remaining Motions

Also pending before the Court is Mr. Darden’s Motion to Proceed in Forma Pauperis
(ECF No. 150); Motion to Supplement the Record (ECF No. 152); Motion to Expand or
Supplement the Record (ECF No. 153); Motion to Expand the Record (ECF No. 154); Motion
Objecting to the District Court’s Sealing of a Motion (ECF No. 155); Motion Objecting to this
Court’s Seal (ECF No. 156); and a Motion for Leave to Amend (ECF No. 157). The Court has
reviewed these motions and the accompanying documentation, and concludes that each is
without merit. Mr. Darden’s Petition is denied, and these remaining motions are DISMISSED
AS MOOT.
V.

CONCLUSION
For the foregoing reasons, Mr. Darden’s Motion to Vacate, Set Aside or Correct Sentence

pursuant to 28 U.S.C. § 2255 (ECF No. 124) is DENIED. Mr. Darden’s Motion for Return of
Property (ECF No. 151) is DENIED. Mr. Darden’s Motion to Proceed in Forma Pauperis (ECF
No. 150); Motion to Supplement the Record (ECF No. 152); Motion to Expand or Supplement
the Record (ECF No. 153); Motion to Expand the Record (ECF No. 154); Motion Objecting to
the District Court’s Sealing of a Motion (ECF No. 155); Motion Objecting to this Court’s Seal
(ECF No. 156); and a Motion for Leave to Amend (ECF No. 157) are DISMISSED AS MOOT.

13

The Court also DENIES a certificate of appealability pursuant to Rule 22(b) of the
Federal Rules of Appellate Procedure, because Mr, Darden has failed to demonstrate a
“substantial showing of the denial of a constitutional right.” : 28 U.S.C. § 2253(c)(2); Miller-El v.
Cockrell, 537 U.S. 322, 335-38 (2003).
Mr. Darden is ADVISED that if he intends to appeal this Final Order and seek a
certificate of.appealability from the United States Court of Appeals for the Fourth Circuit, he
must forward a written Notice of Appeal to the Clerk of the United States District Court, United
States Courthouse, 600 Granby Street, Norfolk, Virginia, 23510 within sixty days from the date
of this Order.
The Clerk is REQUESTED to send a copy of this Order to Mr. Darden and to the
United States Attorney’s Office in Norfolk, Virginia.
IT IS SO ORDERED.

Arencfa Uj
United States

'T

, 2018

Norfolk, yirgmia

14

Additional material
from this filing is
available in the
Clerk's Office.

